audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Prescott Police Department, Arizona
GR-90-00-014
May 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Prescott Police Department (PPD), Arizona.  The purpose of the grants is to enhance community policing.  The PPD was awarded a total of $634,500 to hire eight officers and redeploy the equivalent of 1.0 existing full-time officer from administrative duties to community policing.

As a result of the audit, we noted exceptions in the following areas as identified below:

The PPD informed the COPS office in a January 6, 2000 letter of its decision to decline the amount remaining on the MORE 96 grant.  Therefore, we recommend that COPS deobligate the $30,188 (federal share) and the funds be put to better use. 1
The PPD did not comply with some financial status reporting requirements.
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in  Appendix I.


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.